April 26, 2010

VINCENT H. DEVITO, JR.
VICE PRESIDENT, CONTROLLER

DEAN J. GRANHOLM
VICE PRESIDENT, DELIVERY AND POST OFFICE OPERATIONS

VICE PRESIDENTS, AREA OPERATIONS

SUBJECT: Draft Audit Report – Function 4 Overtime Workhours
         (Report Number MS-AR-10-002)

This report presents the results of our self-initiated audit of Postal Service Function 41
Overtime Workhours (Project Number 09RG009MS000). Our objective was to
determine whether Postal Service officials effectively managed Function 4 workhours to
reduce overtime costs. This audit addresses financial and operational risk. See
Appendix A for additional information about this audit.

Conclusion

Postal Service officials effectively managed Function 4 workhours to reduce overtime
costs. Overall Function 4 overtime workhours decreased from 17.5 million in fiscal year
(FY) 2008 to 9.2 million in FY 2009. However, unauthorized overtime workhours2 as a
percentage of total overtime workhours increased from FY 2008 to FY 2009.
Management should strengthen time and attendance procedures to reduce Function 4
unauthorized overtime costs. We estimated that in FYs 2008 and 2009, the Postal
Service incurred unrecoverable unsupported questioned costs totaling $79.6 million for
unauthorized overtime workhours.

Time and Attendance Procedures Need Strengthening

Some Function 4 employees clocked in before and clocked out after their assigned
workhours, resulting in 1.2 million and 965,000 unauthorized overtime workhours for

1
  Function 4 operations include customer service activities – both supervisory and nonsupervisory – of employees at
post offices, stations, and branches involved in automated, mechanized, manual, and post office box distribution of
mail, post office window, and vending equipment services and miscellaneous administrative and Central Forwarding
System operations.
2
  Unauthorized overtime workhours are hours that employees work in excess of their scheduled tour without prior
authorization from a supervisor.
Function 4 Overtime Workhours                                           MS-AR-10-002



FYs 2008 and 2009, respectively. This occurred because the Postal Service’s badge
control process does not prevent employees from clocking in before and clocking out
after their assigned workhours. In addition, managers and supervisors did not follow
established time and attendance procedures. Officials stated they did not follow
procedures because other duties took priority. Specifically, they did not always:

      Control employees’ access to time cards and badges to ensure they clocked in
       and out according to their assigned schedules;

      Update the Time and Attendance Collection System (TACS) to reflect changes in
       employees’ scheduled work times; and

      Record authorized overtime in TACS to reduce the amount of unauthorized
       overtime recorded in the TACS Unauthorized Overtime Report.

We previously recommended the vice president, controller, assess the feasibility of
automating the badge control process with the Electronic Badge Reader (EBR) and
TACS to prevent employees from clocking in before their official workhours begin.
Although management identified two automated solutions to prevent employees from
clocking in before and clocking out after their assigned workhours, they decided against
these options in favor of using the TACS reports to identify employees clocking in
before normal workhours. Management indicated that the reports were sufficient to
effectively and efficiently manage clocking activity. See Appendix A for prior audit
coverage.

We benchmarked the Postal Service’s procedures for controlling unauthorized work
against procedures at two major corporations. Management controls at the corporations
we surveyed prevent unauthorized overtime costs because their electronic badge
readers do not allow employees to clock in before or clock out after their scheduled
tours of duty without supervisory approval.

We believe preventing employees from clocking in before and clocking out after their
assigned workhours is a more effective and cost efficient control mechanism than
detecting unauthorized workhours after they occur. If management does not automate
the badge control process and managers and supervisors do not comply with
established time and attendance procedures, the Postal Service will continue to incur
unauthorized overtime workhours. We estimate the Postal Service incurred $79.6
million of Function 4 unauthorized overtime costs in FYs 2008 and 2009. See Appendix
B for our detailed analysis of this topic.

We recommend the vice president, controller:

1. Implement an automated solution to prevent employees from clocking in before and
   clocking out after their scheduled tours of duty without supervisory approval.




                                           2
Function 4 Overtime Workhours                                            MS-AR-10-002



We recommend the vice president, Delivery and Post Office Operations, coordinate with
the vice presidents, Area Operations, to:

2. Reiterate the importance of supervisory oversight of the badge control and clock ring
   process to Function 4 managers and supervisors.

3. Re-emphasize to Function 4 managers and supervisors the importance of adjusting
   the Time and Attendance Collection System timely to reflect changes in employees’
   scheduled tours of duty and recording authorized overtime in the Time and
   Attendance Collection System in a timely manner to reduce the amount of
   unauthorized overtime recorded on the Time and Attendance Collection System
   Unauthorized Overtime Report.

Management’s Comments

Management agreed with recommendations 2 and 3, and disagreed with
recommendation 1 and our estimates of unsupported questioned costs.

Management stated that our estimates of unsupported questioned costs ignored the
likelihood that unauthorized overtime used in FYs 2008 and 2009 in Function 4
operations were informally authorized and productive workhours, as opposed to
unauthorized and nonproductive costs that can be eliminated.

Management disagreed with our statement that “preventing employees from clocking in
before and out after their assigned work scheduled is a more effective and cost efficient
mechanism than detecting unauthorized work after it occurs.” They stated that the
primary purpose of the TACS system is to accurately record hours worked by
employees in order to pay them in compliance with the Fair Labor Standards Act (FLSA)
and applicable Postal Service labor contracts. They indicated that imposing
programmatic lockouts of begin and end tour rings for employees does not effectively
curtail work performed by employees that is legally compensable under the FLSA
concept of “suffer and permit.”

Management also indicated the responsibility for verifying clock rings and ensuring
employees’ clock rings align with scheduled and authorized work is best charged to
supervisors. They believe the use of TACS reports offers the most effective and efficient
method of managing clocking activity.

Finally, management asserted that the investment required to provide the
recommended changes in the TACs system is currently cost-prohibitive.

Management agreed with recommendations 2 and 3. They will provide Function 4
managers and supervisors with a guide that outlines their responsibilities for reviewing
time and attendance and sent them a letter to reiterate the importance of supervisory




                                            3
Function 4 Overtime Workhours                                            MS-AR-10-002



oversight of the badge control and clock ring process. Management’s comments, in their
entirety, are included in Appendix E.

Evaluation of Management’s Comments

Management is correct that our estimate of Unsupported Questioned Costs ignored
“informally authorized” workhours. Postal Service policy requires managers and
supervisors to document all authorized overtime in the TACS system. Our estimate is a
statistical projection of unauthorized overtime based on existing Postal Service records,
as there is no valid methodology to determine any amount that was “informally
authorized.”

Management proposed an acceptable alternative to recommendation 1. In a March 18,
2010 meeting we explained that the intent of our recommendation was not to have
TACS automatically clock employees in and out based on work schedules. Rather,
TACS would prevent employees from clocking in early or out late without involving a
supervisor. Management disagreed with this approach because of variations in
schedules and their concern that any savings in unauthorized overtime from
implementing our recommendation would be more than offset by an increase in
grievances.

However, in a memo dated March 2, 2010, management reminded supervisors of their
responsibility to manage work schedules. In addition, management developed a weekly
report to track unauthorized overtime hours, by area and performance cluster, as a
percentage of total overtime hours. Management will provide this report to area vice
presidents weekly. Management believes this visibility will bring unauthorized overtime
under control.

The OIG considers management’s comments responsive to recommendations 2 and 3
and considers the alternative actions taken regarding recommendation 1 to be
responsive.

The OIG considers all the recommendations significant, and therefore requires OIG
concurrence before closure. Consequently, the OIG requests written confirmation when
corrective actions are completed. These recommendations should not be closed in the
follow-up tracking system until the OIG provides written confirmation that the
recommendations can be closed.




                                            4
Function 4 Overtime Workhours                                            MS-AR-10-002




We appreciate the cooperation and courtesies provided by your staff. If you have any
questions or need additional information, please contact Robert Mitchell, director, Sales
and Service, or me at (703) 248-2100.

   E-Signed by Darrell E. Benjamin, Jr
   VERIFY authenticity with ApproveIt

Darrell E. Benjamin, Jr.
Deputy Assistant Inspector General
 for Revenue and Systems

Attachments

cc: Joseph Corbett
    Steven J. Forte
    Sally K. Haring




                                            5
Function 4 Overtime Workhours                                                                MS-AR-10-002



                           APPENDIX A: ADDITIONAL INFORMATION

BACKGROUND

The Postal Service must compensate employees for their work if management knows or
has reason to believe they performed the work. Management has a duty to ensure the
employees do not perform unauthorized work. An announcement by management that
they will not permit overtime work— or will not compensate overtime work unless they
authorize it in advance — will not impair employees’ rights to compensation for work
performed.3

The Postal Service incurred approximately 204 million and 166 million workhours for
Function 4 operations in FYs 2008 and 2009, respectively. Overtime workhours
accounted for approximately 8.56 percent of total workhours in FY 2008 and
5.54 percent in FY 2009 (see Table 1).

                                        Table 1. Function 4 Workhours
                                    FY 2008                                          FY 2009
                                                    Overtime                                           Overtime
                                                   Workhours                                          Workhours
                                     Total            as a                             Total             as a
                    Total           Overtime       Percentage        Total            Overtime        Percentage
                  Workhours        Workhours        of Total       Workhours         Workhours         of Total
       Area        (Actual)         (Actual)       Workhours        (Actual)          (Actual)        Workhours
    Capital
                   18,058,683        1,532,391         8.49          14,647,459         930,225          6.35
    Metro
    Eastern        22,033,087        2,093,352         9.50          18,132,556       1,120,402          6.18
    Great
                   24,520,575        2,129,230         8.68          19,420,428       1,221,215          6.29
    Lakes
    New York
                   22,004,559        2,055,510         9.34          16,624,381         934,807          5.62
    Metro
    Northeast      17,808,256        1,501,174         8.43          13,844,070         691,899          5.00
    Pacific        21,868,233        1,531,718         7.00          18,755,897         755,763          4.03
    Southeast      25,993,171        2,356,897         9.07          21,433,920       1,462,353          6.82
    Southwest      21,855,334        1,814,465         8.30          17,489,460         601,583          3.44
    Western        29,873,633        2,445,735         8.19          25,733,050       1,488,791          5.79
                               4                                                 5
      TOTAL      204,015,531        17,460,472         8.56        166,081,221        9,207,038          5.54
Source: National eFlash.




3
  Code of Federal Regulations (e-CFR), 29 CFR 785 and 29 CFR 778.316, July 1, 2003.
4
  FY 2008, Function 4 total workhours (actual) includes LDC 40 – Supervision and LDC 94 – Training.
5
  FY 2009, Function 4 total workhours (actual) excludes LDC 40 – Supervision and LDC 94 – Training.




                                                        6
Function 4 Overtime Workhours                                                                     MS-AR-10-002



OBJECTIVE, SCOPE, AND METHODOLOGY

Our objective was to determine whether Postal Service officials effectively managed
Function 4 workhours to reduce overtime costs. Our scope included FYs 2008 and 2009
Function 4 overtime workhours.

To accomplish our objective, we:

        Reviewed applicable policies and procedures relating to badge control and clock
         ring6 management.

        Analyzed 198 randomly selected district weeks7 of TACS Unauthorized Overtime
         Reports from a universe of 4,160 district weeks to determine how many
         unauthorized overtime workhours the Postal Service incurred in FY 2008. We
         also randomly selected and analyzed Unauthorized Overtime Reports for 207
         district weeks from a similar universe for FY 2009. The data for the randomly
         selected district weeks covered all Postal Service areas.

        Visited selected Postal Service facilities in the Capitol Metro and Great Lakes
         areas to conduct observations and interview managers and supervisors to obtain
         information on Function 4 operations and badge control and clock ring
         procedures.

        Prepared a flowchart of the badge control and clock ring management process
         (see Appendix D).

        Interviewed officials at high-performing facilities8 in the Eastern and Pacific areas
         to determine the reasons for their success and to develop best practices.

        Benchmarked Postal Service’s procedures for controlling unauthorized work
         against the procedures of two major corporations.

        Calculated the potential cost savings the Postal Service could realize by reducing
         unauthorized overtime workhours using FYs 2008 and 2009 TACS data. See
         Appendix C for our calculation of unsupported questioned costs.

We conducted this performance audit from January 2009 through April 2010 in
accordance with generally accepted government auditing standards and included such
tests of internal controls as we considered necessary under the circumstances. Those
standards require that we plan and perform the audit to obtain sufficient, appropriate

6
  Time recorded when an employee swipes a time card through the EBR.
7
  A district week is the number of weeks in a year times the number of possible districts in a Postal Service area. For
example, nationwide there were 80 districts in FY 2008, multiplied by 52 weeks, equals a universe of 4,160 district
weeks.
8
  Postal Service districts that incurred the least amount of unauthorized overtime workhours.




                                                           7
Function 4 Overtime Workhours                                                                 MS-AR-10-002



evidence to provide a reasonable basis for our findings and conclusions based on our
audit objective. We believe that the evidence obtained provides a reasonable basis for
our findings and conclusions based on our audit objective. We relied on data obtained
from the TACS. We did not directly audit the TACS, but relied on a prior U.S. Postal
Service Office of Inspector General (OIG) audit of the TACS that reported that internal
controls ensuring the accuracy of clock rings were in place and effective9.

PRIOR AUDIT COVERAGE

Our report titled City Letter Carrier Operations Office Time Processes (Report Number
DR-AR-08-013, dated September 30, 2008) concluded that some city letter carriers
were clocking in before their scheduled tour of duty, resulting in unauthorized overtime.
This occurred because managers and supervisors did not always follow established
procedures. As a result, for city delivery operations, we estimated the Postal Service
incurred unrecoverable questioned costs10 in FY 2007 of $6,128,681. We also
estimated Postal Service city delivery operations would incur unauthorized overtime
workhours totaling $12,862,773 for early clock in (classified as funds put to better use11)
by the end of FY 2009.

We recommended the vice president, controller, assess the feasibility of automating the
badge control processes with the EBR and the TACS to prevent employees from
clocking in before their official start times. Management agreed with our findings and
identified two options for automation of the badge control processes, both of which
required capital investment.

Option one was to download and track employee schedules on time clock devices. This
would require a complete replacement of approximately 22,000 time clock devices with
a new device in order to hold the employees’ schedules. According to management, the
two types of time clock devices in service do not have enough memory to accommodate
online downloaded schedules. Management estimated the complete replacement of the
time clock devices to be $40-$50 million.

Option two was to query the centralized TACS databases for schedules when
employees swipe badges. Management indicated that this is possible on the 9,500 new
“Hyper” electronic badge reader time clocks, but not possible on the 12,500 legacy time
clocks because they do not have communications capabilities to query external
sources.12 If management obtained funds, they would complete the rollout of new clocks
by the end of FY 2012, but they did not provide the estimated cost for this option.


9
  Application Control Review of the Time and Attendance Collection System (Report Number IS-AR-08-014, dated
August 14, 2008).
10
   Unrecoverable questioned costs are costs that are unnecessary, unreasonable, or an alleged violation of law or
regulation.
11
   Funds put to better use are funds that could be used more efficiently by implementing the recommended actions.
12
   The Postal Service had 22,017 time clocks as of January 5, 2010 (12,050 “Hyper” electronic badge readers and
9,967 legacy).




                                                         8
Function 4 Overtime Workhours                                          MS-AR-10-002



Although management acknowledged the current system’s inability to address early
clocking in and provided two viable options to address our recommendation, they stated
the management tools in place are sufficient to effectively and efficiently manage
clocking activity; therefore, they do not plan to automate the badge control process at
this time.

Instead of automating the badge control process, management established additional
reporting capability in the enterprise data warehouse, called the Time and Attendance
Reporting (TAR) project. This reporting capability provides two management tools: Tour
Deviation and Unauthorized Overtime Reports. Finally, management stated they would
create additional training materials using the TAR reports and re-emphasize the
importance of badge control to front-line managers and supervisors.




                                           9
Function 4 Overtime Workhours                                                                   MS-AR-10-002



                                APPENDIX B: DETAILED ANALYSIS

Postal Service officials effectively managed Function 4 workhours to reduce overtime
costs. Overall, Function 4 overtime workhours decreased from 17.5 million to 9.2 million
from FY 2008 to FY 2009. However, total unauthorized overtime workhours as a
percentage of total overtime workhours increased from 6.98 percent to 10.49 percent
from FY 2008 to 2009.13 This trend occurred in all Postal Service Areas. Some Function
4 employees clocked in before and clocked out after their assigned workhours, which
resulted in unauthorized overtime projected at 1,219,554 and 965,596 workhours for
FYs 2008 and 2009, respectively (see Table 2).

                    Table 2. Estimated Function 4 Unauthorized Overtime Workhours as a
                                 Percentage of Total Function 4 Workhours14
                                  FY 2008                                             FY 2009
                                                 Function 4                                          Function 4
                                                Unauthorized                                        Unauthorized
                                                  Overtime                                            Overtime
                                                 Workhours                                           Workhours
                                                    as a                                                as a
                                                 Percentage                                          Percentage
                Function 4        Total           of Total         Function 4          Total          of Total
               Unauthorized     Function 4       Function 4       Unauthorized       Function 4      Function 4
                 Overtime        Overtime         Overtime          Overtime          Overtime        Overtime
     Area       Workhours       Workhours        Workhours         Workhours         Workhours       Workhours
Capital
                     266,300      1,532,391         17.38                166,909         930,225        17.94
Metro
Eastern               37,638      2,093,352          1.80                  32,502      1.120,402         2.90
Great
                     184,232      2,129,230          8.65                201,547       1,221,215        16.50
Lakes
New York
                     131,813      2,055,510          6.41          Not Available         934,807     Not Available
Metro15
Northeast             94,702      1,501,174          6.31                  61,174        691,899         8.84
Pacific               64,788      1,531,718          4.23                  50,458        755,763         6.68
Southeast            161,559      2,356,897          6.85                152,343       1,462,353        10.42
Southwest            115,220      1,814,465          6.35                173,885         601,583        28.90
Western              163,302      2,445,735          6.68                126,778       1,488,791         8.52
TOTAL              1,219,554     17,460,472          6.98                965,596       9,207,038        10.49
Source: OIG Analysis of Overtime Workhours




13
   According to Postal Service officials, unauthorized overtime is a systemic problem. The OIG also reported this
issue for Function 2, Delivery Operations (Report Number DR-AR-08-013, dated September 30, 2008). See the Prior
Audit section of this report.
14
   We calculated the unauthorized overtime workhours estimates based on the results of our statistical sample.
15
   In FY 2010, the Postal Service reorganized its operations to eliminate the New York Metro area. The districts in
the area were merged with other districts. We replaced New York Metro Area district weeks selected for review with
other areas’ district weeks because the FY 2009 unauthorized overtime reports for the New York Metro area were not
currently available.




                                                        10
Function 4 Overtime Workhours                                           MS-AR-10-002



This occurred because the Postal Service’s badge control process does not prevent
employees from clocking in before and clocking out after their assigned workhours. In
addition, managers and supervisors did not follow established time and attendance
procedures. Officials stated that they did not always follow procedures because other
duties took priority.

Managers and supervisors are responsible for controlling employees’ access to time
cards and badges, making certain the employees clock in and out according to their
assigned schedules and approving all daily clock rings that deviate from their assigned
schedules by more than 5 minutes. They are also responsible for updating the TACS to
reflect changes in employees’ scheduled work times and recording authorized overtime
in the TACS to reduce the amount of unauthorized overtime recorded on the TACS
Unauthorized Overtime Report.

We interviewed 13 finance managers from high-performing district offices in the Eastern
and Pacific Areas to determine the reasons for their success in controlling unauthorized
workhours and to develop best practices. Districts in the Eastern and Pacific Areas
incurred the fewest Function 4 unauthorized overtime workhours in FYs 2008 and 2009.
These districts were successful in controlling unauthorized workhours because their
managers and supervisors substantially complied with established time and attendance
procedures. The districts provided their managers and supervisors training on time and
attendance procedures, provided overtime reports for them to use to manage
workhours, and held frequent meetings to discuss overtime workhours.

In addition, we benchmarked the Postal Service’s procedures for controlling
unauthorized work against procedures at two major corporations. Management controls
at the corporations we surveyed prevent unauthorized overtime costs because their
electronic badge readers do not allow employees to clock in before or clock out after
their scheduled tours of duty without supervisory approval. Conversely, Postal Service
electronic badge readers allow employees to clock in before and clock out after their
scheduled tours of duty without management’s approval.

Finally, we previously reported in City Letter Operations Office Time Processes (Report
Number DR-AR-08-013, dated September 30, 2008) that city letter carriers clocked in
before their scheduled tours of duty resulting in significant unauthorized overtime
workhours. We recommended the vice president, controller, assess the feasibility of
automating the badge control processes with the EBR and the TACS to prevent
employees from clocking in before their official start time. Management agreed with our
findings and identified two automated solutions to prevent employees from clocking in
before and clocking out after their assigned work schedules. However, they decided
against these options in favor of using the TACS reports. Management indicated that
the reports were sufficient to effectively and efficiently manage clocking activity.

We believe preventing employees from clocking in before and clocking out after their
assigned work schedules is a more effective and cost efficient control mechanism than




                                           11
Function 4 Overtime Workhours                                          MS-AR-10-002



detecting unauthorized work after it occurs. If management does not automate the
badge control process and managers and supervisors do not comply with established
time and attendance procedures, the Postal Service will continue to incur unauthorized
overtime workhours. We estimated that the Postal Service incurred $79.6 million in
Function 4 unauthorized overtime costs in FYs 2008 and 2009.




                                          12
Function 4 Overtime Workhours                                                                                 MS-AR-10-002



                                      APPENDIX C: MONETARY IMPACT

                         OIG Calculation of Unsupported Questioned Costs
We sampled unauthorized overtime data using random sampling methodology. The
universe consisted of 8,320 district weeks (4,160 each for FYs 2008 and 2009) for the
80 Postal Service districts. We selected and reviewed 405 district weeks (198 for FY
2008 and 207 for FY 2009) to determine unauthorized overtime workhours incurred. We
used variable sampling16 to project the sampling results based on a 95 percent
confidence level.17 We calculated the unrecoverable unsupported questioned costs by
multiplying the projected unauthorized overtime workhours by the clerks’ average
overtime hourly rate.18 We estimated that the Postal Service incurred unrecoverable
unsupported questioned costs19 totaling $79.6 ($43.6 million in FY 2008 and $36 million
in FY 2009).

Our statistical sample taken on a nationwide basis resulted in 1,219,554 and 965,596
unauthorized overtime workhours for FYs 2008 and 2009, respectively. However,
because the Postal Service’s organizational structure requires each area to manage its
own field budget, we extrapolated our nationwide monetary impact to each area.
Provided below is the estimated monetary impact for each area.

                                          Table 3. Unsupported Questioned Costs
                                     FY 2008                                          FY 2009
                     Estimated                                         Estimated
                    Unauthorized                                      Unauthorized                                     Total
                     Function 4            Unrecoverable               Function 4         Unrecoverable             Unsupported
                      Overtime              Unsupported                 Overtime           Unsupported              Questioned
     Area            Workhours            Questioned Costs             Workhours         Questioned Costs              Costs
Capital Metro               266,300                $9,512,236               166,909                $6,237,389        $15,749,625
Eastern                      37,638                  1,344,429               32,502                 1,214,600          2,559,029
Great Lakes                 184,232                  6,580,767              201,547                 7,531,811         14,112,578
New York
      15                     31,813                  4,708,360        Not Available          Not Available             4.708,360
Metro
Northeast                    94,702                  3,382,755               61,174                 2,286,072          5,668,827
Pacific                      64,788                  2,314,227               50,458                 1,885,615          4,199,842
Southeast                   161,559                  5,770,887              152,343                 5,693,058         11,463,945
Southwest                   115,220                  4,115,658              173,885                 6,498,082         10,613,740
Western                     163,302                  5,833,147              126,778                 4,737,694         10,570,841
     TOTAL                1,219,554               $43,562,466               965,596              $36,084,321         $79,646,787
          Source: OIG calculation performed on the results of the precision analysis of post stratified appraisal



16
   A statistical procedure used to study the quantitative characteristics of a population.
17
   We estimated unauthorized overtime workhours using TACS data and RAT-STATS software
18
   The clerks’ average overtime hourly rate is 150 percent of the clerks’ average hourly rate. The clerks’ average
hourly rate published in the National Payroll Hours Summary Report was $23.81 and $24.91 for FYs 2008 and 2009,
respectively.
19
   Unrecoverable costs are costs that the OIG questions because of missing or incomplete documentation or failure to
follow required procedures.




                                                                 13
Function 4 Overtime Workhours                                             MS-AR-10-002



                            APPENDIX D: FLOW CHART OF BADGE
                          CONTROL AND CLOCK RING MANAGEMENT

                     Start                                 Supervisor unlocks the
                                                            badge rack 5 minutes
                                                              prior to employee
                                                          scheduled begin time and
                                                            observes/monitors the
                                                             clock in procedure.
                   Supervisor
                   reports for
                      duty.




                                                                   Does the
           Supervisor prepares
                                                                  supervisor
           station for employee
                                                                 monitor the
          arrival by placing time
                                                               employee clock
            badges in rack and
                                                              rings procedure?
             locking the rack.




                                                                                            Weakness
                                                                                          This provides
                                                                             No                 an
                                                                                            opportunity
              Is the badge rack                                                          for employees
               locked after the                                                           to have clock
                                                                    Yes
             badges are placed                                                             rings errors.
             in the badge rack?

                                         Weakness          Supervisor secures the
                                        This provides          badges after the
                                       an opportunity      employees’ clock in and
                                 No                         out and continues with
             Yes                       for employees
                                        to clock ring            office duties.
                                         early/late.



               Does the badge rack
               remain locked until 5
                 minutes prior to
              employees' scheduled
                  tour of duty?                                      End

                                         Weakness
                                        This provides
                             No        an opportunity
                                       for employees
                                       to clock in/out
                                         early/late.
                    Yes




                                                     14
Function 4 Overtime Workhours                             MS-AR-10-002




                      APPENDIX E: MANAGEMENT’S COMMENTS




                                     15
Function 4 Overtime Workhours        MS-AR-10-002




                                16
Function 4 Overtime Workhours        MS-AR-10-002




                                17
